HHS/OIG-Audit-"Audit of Medicare Payments to Pacificare for Beneficiaries Classified as Institutionalized in State Other Than California in January 1998"(A-09-01-00094)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Payments to Pacificare for Beneficiaries Classified
as Institutionalized in States Other Than California in January 1998," (A-09-01-00094)
February 8, 2002
Complete
Text of Report is available in PDF format (7.01 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Medicare pays a higher capitation rate for Medicare beneficiaries who are
institutionalized.  This final report shows that PacifiCare plans outside
California did not implement a policy letter issued by the Centers for Medicare & Medicaid
Services in a timely manner.  PacifiCare claimed the higher rate for some
beneficiaries who were not institutionalized in December 1997, resulting in
overpayments for January 1998. We estimated these overpayments to be in excess
of $700,000.